IN THE SUPREME COURT OF THE UNITED STATES

James L. Martin, plaintiff below, appellant

: No.

v.
National General Assurance Company,
Defendant below, appellee
Certificate of Service
I, James L. Martin, certify that I served a copy of the Petitioner's Rule
30 Application to Justice Sotomayor (Justice Alito is ineligible) for
Extension of Time to file Petition for a Writ of Certiorari to the Supreme
Court of Delaware upon counsel of record for the appellee by postageprepaid, first-class mail this 29th day of August 2019 at the following
address:
David C. Malatesta, Jr., Esq.; Kent and McBride, PC; 824 N. Market
St., Ste 805; Wilmington, DE 19801.

BY:
/ames L. Martin
805 W. 21st St.
Wilmington, DE 19802
(302) 652-3957

